U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bourtzakis v. Barr, No. 19-1325
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 26, 2020.
The government’s response is now due, after one extension, on July 29, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 21, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1325
BOURTZAKIS, DIMITRIOS I.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.

ERIN GLENN BUSBY
THE UNIVERSITY OF TEXAS AT AUSTIN
SCHOOL OF LAW
727 EAST DEAN KEETON STREET
AUSTIN, TX 78705
7139660409
EBUSBY@LAW.UTEXAS.EDU

